No. 20-

311t the ifoupreme Court of the

niteb ilatateo

DAVID MING PON, PETITIONER
v.

UNITED STATES, RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, as a member of the Supreme Court
bar, certify that the document contains 8,998 words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 10, 2021.

Steffen N. Johnson
Wilson Sonsini Goodrich & Rosati
Counsel for Petitioner

